 Investigative Report of
   Anthony Babauta




     Date Posted to Web: June 4, 2014




This is a version of the report prepared for public release.
X


                                           SYNOPSIS

The Office of Inspector General initiated this investigation after receiving allegations that former
Assistant Secretary for Insular Affairs Anthony Babauta may have been directing Office of
Insular Affairs (OIA) grants and contracts to friends. We also received allegations that Babauta
mistreated his employees through discrimination and sexual harassment, misused Government
equipment and personnel, and took personal trips under the guise of Government travel.

We found that, against the advice of his staff and grant specialists, Babauta directed the award of
two OIA grants to the University of Guam (UOG) to support the Micronesian Center for a
Sustainable Future (MCSF). Both grants went to Babauta’s former employer, a UOG senior
official, and UOG subsequently hired Babauta’s friend as the MCSF project coordinator. Our
investigation revealed that UOG allowed the MCSF project coordinator to expend $32,636.34 in
grant funds on unallowable expenses, many of which were of personal benefit to the MCSF
project coordinator.

Interviews with current and former OIA employees support that Babauta made inappropriate
comments to employees and conducted himself unprofessionally at times. Babauta had one OIA
employee perform work outside the scope of his Government duties. We further found that
Babauta resided at the guest house of one subordinate employee for several months without
providing compensation. We did not find evidence that Babauta used Government travel for
personal gain, but there were certain trips for Government business in which he appeared to
benefit personally.

                               DETAILS OF INVESTIGATION

On October 19, 2012, the U.S. Department of the Interior’s (DOI) Office of the Solicitor (SOL)
brought allegations to the Office of Inspector General (OIG) that former Assistant Secretary for
Insular Affairs Anthony Babauta mistreated his employees through discrimination and sexual
harassment, misused Government equipment and personnel, and took personal trips under the
guise of official business. These allegations originated from Office of Insular Affairs (OIA)
employees, some of whom filed Equal Employment Opportunity complaints against him.

After initiating our investigation on October 26, 2012, we received further information that
Babauta may have directed OIA grants to friends, and we incorporated this into our
investigation.

Directing Federal Contracts and Grants to Friends

We investigated the following allegations pertaining to contracts and grants:

    •   a proposed contract to the Council for Native Hawaiian Advancement;
    •   two grants to the Micronesian Center for a Sustainable Future; and
    •   two grants to the Guamanian nongovernmental organization Payu-Ta, Inc.




                                                                                                   1
Council for Native Hawaiian Advancement

We interviewed an OIA Guam employee who stated that the most egregious problem within OIA
involved the issuance of grants. She believed that Babauta had pushed grants upon the office that
would not have otherwise been funded. She recalled that Babauta wanted OIA to issue a grant to
the Council for Native Hawaiian Advancement (CNHA) for the Island Business Link project
because OIA needed a host organization to manage that grant. The project was for an interactive
website designed to improve economic development in the insular areas. OIA learned that it
could not give CNHA the grant, she said, so Babauta told her in September 2011 to develop a
sole source contract with the organization.

The OIA Guam employee later sent an email to OIG clarifying that Babauta originally wanted to
create a partnership with CNHA and had only two options: a grant or a contract. She said that a
partnership could not be enacted with a Hawaiian nonprofit via a grant, so a contract was the
only choice.

The OIA Guam employee did not understand why CNHA, a Native Hawaiian activist group that
only dealt with Hawaiians and did not include Micronesians or American Samoans, should run
the program. She surmised that Babauta wanted CNHA to market Island Business Link because
CNHA’s leadership had ties with senators and other politicians. She specifically noted that a
CNHA executive was a good friend of then U.S. Senator Daniel Inouye (D-HI). The OIA Guam
employee said that when she expressed her concerns to Babauta, he told her the project was for
economic development, and she needed to “get on board.” She said she followed Babauta’s
direction and met with CNHA in an effort to develop the contract.

The OIA Guam employee said she believed Babauta intended to use his position as the Assistant
Secretary to further his political aspirations and career, although he never directly told her this.
She believed, however, that Babauta thought the CNHA executive had a lot of clout that could
later be leveraged for Babauta’s own political aspirations.

According to the OIA Guam employee, Babauta told her he wanted to sole source the project to
CNHA. She spoke to an attorney-advisor with DOI’s Office of the Solicitor, who then met with
Babauta and told him he could not do this. When asked about the Government’s need for the
CNHA contract, the OIA Guam employee said she did not believe it was needed because OIA
could do the work. She said that although Babauta was told that he could not award CNHA a
sole-source contract for the project, CNHA could still compete for the contract. She reiterated
that Babauta told her he wanted CNHA to do the project.

When we interviewed the CNHA executive, she said she did not know Babauta before he was
selected as the Assistant Secretary for Insular Areas, but she said that since that time, she had
developed a personal relationship with him. According to her, CNHA did not previously have
contracts or grants with OIA, but she acknowledged that, at Babauta’s request, she traveled to
Washington, DC, in January 2012 to meet with Babauta and his staff to discuss a contract with
OIA to manage Island Business Link, a component of the Pacific Business Partnership Initiative.

The CNHA executive said the contract was Babauta’s idea, and she had never heard of Island



                                                                                                   2
Business Link before he mentioned it. According to her, Babauta said it was an opportunity for
CNHA to join in a cooperative agreement with OIA.

Babauta acknowledged that he was friends with the CNHA executive and believed he was
introduced to her in 2010. He said that he favored having CNHA manage Island Business Link,
which was previously operated by the University of Hawaii. When asked if he recommended that
OIA issue a sole-source contract to CNHA to operate the website, Babauta responded that he
recommended that it made sense for CNHA to manage the website in conjunction with the work
that they were doing with the Pacific Business Partnership Initiative. He continued: “I thought it
made sense for CNHA to manage it versus interns at the University of Hawaii that weren’t
involved with the initiative.” He said he did not have any Government contract training and did
not understand the meaning of a sole-source contract. Babauta said he assumed that Government
procurement rules did not apply to CNHA because it was a nonprofit organization, and OIA
routinely gave grants to nonprofit organizations.

When asked if any of his staff indicated that they were uncomfortable with him directing them to
prepare the statement of work for a sole-source contract with CNHA, Babauta recalled that the
OIA Guam employee might have told him she was more comfortable keeping the contract with
the University of Hawaii. He did not believe the OIA Guam employee fully appreciated the
vision of the CNHA and Pacific Business Partnership Initiative.

Babauta denied that his recommendations had anything to do with his friendship with the CNHA
executive. He admitted that he spoke to her sometime in 2011 about the potential contract with
CNHA because he “thought managing the website paired well with the Pacific Business
Partnership Initiative” and wanted to get an idea of CNHA’s capabilities for the project. Babauta
recalled that he invited the CNHA executive to meet with his staff at one point to tell them about
her organization and capabilities. Babauta said he also wanted to give the OIA Guam employee a
“sense of confidence” that CNHA was a better fit and was just as capable as the University of
Hawaii to manage the Island Business Link website.

Babauta believed his staff talked to procurement experts about the potential contract with
CNHA. He did not know the status of the contract and did not believe the website was
operational.

Micronesian Center for a Sustainable Future

We reviewed two OIA technical assistance grants:

   •   TA-UOG-MCSF-2011-6 in the amount of $50,000; and
   •   TA-UOG-MCSF-2011-10 in the amount of $401,208.

Our review of the MCSF grants revealed that UOG was awarded a $50,000 technical assistance
grant on July 18, 2011, as an interim measure to provide financial support for the 15th MCES,
held from July 25 through July 28, 2011, on Pohnpei in the Federated States of Micronesia. The
original end date for the period of performance was July 31, 2012. On August 13, 2012, OIA
extended the end date for the period of performance to December 30, 2012, to allow UOG


                                                                                                 3
enough time to submit receipts from the MCES.

UOG was also awarded a $401,218 technical assistance grant on August 4, 2011, to provide
financial support for MCSF. The end date for the period of performance was August 31, 2013.
As a result of the OIG investigation, the grant was indefinitely suspended on February 4, 2013,
pending an OIA review of the grant-funded activities and expenditures.

We discovered the MCSF project coordinator began communicating directly with Babauta and
his staff concerning MCSF funding in September 2009. In January 2010, the MCSF project
coordinator continued to email Babauta concerning an MCSF technical assistance grant. In
March 2010, Babauta directed members of his staff to speak directly with the MCSF project
coordinator concerning MCSF funding.

In a December 15, 2010 email from Babauta to the UOG senior official, Babauta stated: “Thanks
boss . . . on MCSF – I have pushed but do not want to micromanage the chiefs. . . . I’ve had a
convo with [the President of the Federated States of Micronesia] and [the Governor of Saipan] –
seems they have the support to keep GS [Graduate School] for now, but when the grant is up in
June, then move to UOG. How does that sound?” A second email from Babauta to the MCSF
project coordinator, dated December 26, 2010, informed the MCSF project coordinator that the
Graduate School contract would not be extended.

In June 2011, OIA received a letter from the President of the Federated States of Micronesia sent
to Babauta, asking for an extension to the Graduate School MCSF contract. Babauta denied the
request, citing insufficient time to process and approve the request.

On July 8, 2011, UOG submitted a grant request for MCSF. Babauta forwarded the grant request
in an email to the OIA director of technical assistance on July 11, 2011, and asked: “Can you
turn this around quickly.” On July 13, 2011, the OIA technical assistance review committee
voted unanimously not to fund the grant. On July 15, 2011, UOG submitted a revised grant
request, which included a salary increase for the MCSF project coordinator. The grant was
subsequently approved by Babauta.

We discovered an email from the MCSF project coordinator to Babauta, dated July 14, 2012, in
which the MCSF project coordinator stated: “I am transmitting documents from the
[Micronesian] Chiefs and Designated Representative as per our discussion today. We are
requesting that you facilitate a transfer of this grant and the funds associated with it directly to
the Chiefs.” Babauta forwarded the documents to the OIA deputy director of technical assistance
and the OIA director of technical assistance, stating: “I have a gentlemen’s agrrement [sic] with
[the UOG senior official] to have this grant ‘pass through’ the University.”

Babauta acknowledged during his interview that the MCSF project coordinator was a personal
friend of 15 to 20 years. He said they met in Guam while working to get their candidate elected
to the Guam legislature. He said the MCSF project coordinator worked for MCSF by carrying
out the agenda of the Micronesian chief executives. He confirmed he directed that the MCSF
grant be changed from the Graduate School to UOG. He said the impetus for the change was a
letter from the President of the Federated States of Micronesia, expressing dissatisfaction with



                                                                                                   4
the program manager. Babauta acknowledged that the MCSF project coordinator sent him an
email stating that the President of the Federated States of Micronesia believed the Graduate
School was not doing a good job and that OIA needed to transfer the grant to UOG.

In a separate interview, Babauta said that after deciding to move the grant from the Graduate
School to UOG, he discussed the move with his staff, including the director and deputy director
of technical assistance. Babauta did not recall exactly how his staff responded to his decision, but
he recalled that they were concerned that the university did not have the financial infrastructure
needed to properly manage the grant.

We showed Babauta the July 14, 2012 email from the MCSF project coordinator to him in which
the MCSF project coordinator requested that the grant be transferred directly to the chief
executives. Babauta said that the deputy director of technical assistance later told him in an email
that he should not be dealing directly with the MCSF project coordinator. When asked if he
followed the deputy director’s advice and ceased his dealings with the MCSF project
coordinator, Babauta said: “I don’t know that that settled on me.” Babauta said that because the
MCSF project coordinator was his friend, he understood how his continued dealings with him
could be perceived as a conflict of interest. Babauta also said: “I guess I should have excused
myself.” Babauta said he knew that the MCSF project coordinator would be working on the grant
and would likely be using these grant funds to pay for travel expenses related to the project but,
at the time, he did not consider this to be an issue.

Babauta said the UOG senior official used to be his boss when he worked on Capitol Hill in
1998. He and the UOG senior official maintained a business relationship since that time, but he
said he understood now why it might not have been appropriate to deal with the UOG senior
official on the grant. In retrospect, he agreed that he should have recused himself, given his
personal relationship with the people involved. He said he tried to be fair when awarding grant
monies, and because he was from Guam, he always made sure not to appear to be favoring Guam
in the award process. Babauta said he had never used his position as assistant secretary to funnel
grant or other monies to Guam or his friends in Guam.

During his interview, OIA Director Nikolao Pula mentioned the MCSF grants. He said that the
recipient of the grant switched from the Graduate School to UOG. Pula said the MCSF project
coordinator was somehow involved in switching the recipient to UOG. Pula asked Babauta why
the grant was changed, and Babauta replied that the Micronesian leaders wanted it moved away
from the Graduate School. Pula said he contacted the program manager for the Pacific Islands
Training Initiative with the Graduate School, who said that the MCSF project coordinator and
others had been badmouthing the Graduate School and that the Micronesian leaders still wanted
the Graduate School to administer the grant. Pula also said that OIA’s grant managers believed
the Graduate School performed well and produced good products. Pula expressed overall
concerns about grants awarded by OIA since Babauta joined the office. He said he had heard
from various staff members that it appeared as if OIA was giving a lot of grants to UOG. Based
on his experience, Pula believed that Babauta’s involvement with the grant appeared to be a
conflict of interest.

The OIA Guam employee had similar concerns about the MCSF grants. She said the MCSF



                                                                                                  5
project coordinator’s name was written into the original grant proposal and that OIA budget
office staff objected to him being named. She said Babauta told OIA budget staff to help the
requestor resubmit a proper grant application by removing the names of proposed employees
from their application, even though she believed those people would end up with the jobs
anyway. She did not know Babauta’s motivation for wanting the grant approved.

When asked how she knew that Babauta and the MCSF project coordinator were friends, the
OIA Guam employee recalled that the MCSF project coordinator called her numerous times
before Babauta came to OIA and, at one point, told her about Babauta’s pending appointment to
the assistant secretary position. The MCSF project coordinator wanted to have a reception for
Babauta at a conference that she was planning in Honolulu, HI, she said. According to the OIA
Guam employee, the MCSF project coordinator told her he was good friends with Babauta.

The OIA Guam employee said it was general knowledge that Babauta and the MCSF project
coordinator were friends from Guam. She said the MCSF project coordinator had a government
job with the environmental office in Guam and now worked as a paid employee under the MCSF
grant. She surmised that the grant was changed to UOG from the Graduate School because of
Babauta’s friendship with the MCSF project coordinator and the UOG senior official, who had
brought Babauta to Washington, DC, when the UOG senior official represented Guam in
Congress.

We interviewed a special assistant from the Office of the Governor, Saipan, Commonwealth of
the Northern Mariana Islands (CNMI), who said she worked for the Governor of Saipan.
According to the special assistant, the Micronesian chief executives would meet once or twice a
year to discuss CNMI economic development concerns, and they realized that they needed a
mechanism for tracking their ideas and discussions during these meetings, which led to the
development of MCSF.

The special assistant said the Graduate School originally provided funds to MCSF through a
contract with OIA. She said the program manager for the Pacific Islands Training Initiative
administered the funds, but the Graduate School administered the funds too strictly. CNMI
wanted more control over how the funds were distributed and used. These problems led to the
development of a grant for MCSF awarded through UOG.

According to the special assistant, the MCSF project coordinator was recently hired to work on
the grant and was doing a good job. She said he was the only person who responded to their
solicitation. The $30,000 contract awarded to the MCSF project coordinator in October 2012
expired in June 2013. She said the MCSF project coordinator worked for MCSF prior to this
without compensation and that his friendship with Babauta was one of the main reasons that
MCSF awarded him the contract. She said the MCSF project coordinator had “the ability to pick
up the phone and call Babauta and get things done.”

We interviewed the Governor of Yap State, Federated States of Micronesia, and the Assistant
Attorney General of the Yap State Government. The Governor of Yap State said the
administration of MCSF by the Graduate School was initially slow, but it eventually improved.
He said he was not satisfied with the current administration of the OIA grant through UOG and



                                                                                                  6
the MCSF project coordinator. He added that he was not involved in selecting the MCSF project
coordinator and only recently met him at an MCSF function. The MCSF project coordinator told
the Governor of Yap State that he had the ear of somebody in Washington, DC. The Governor
assumed that the MCSF project coordinator was referring to Babauta because he had heard that
they were friends.

The director of resources and development for the State of Kosrae, Federated States of
Micronesia, who was the Kosrae designated representative to MCSF, said he did not know why
the MCSF grant transitioned from a contract with the Graduate School to a grant with UOG. He
was unaware of a decision by the Micronesian chief executives to obtain support from UOG and
felt the Graduate School had done an exceptional job managing MCSF.

The director of resources and development for the State of Kosrae said he had no complaints
with the manner in which the program manager for the Pacific Islands Training Initiative
managed MCSF for the Graduate School. He recalled that the MCSF project coordinator
replaced the program manager for the Pacific Islands Training Initiative in or around March
2012. The director of resources and development for the State of Kosrae said that the MCSF
project coordinator did not manage MCSF as well as the previous program manager. He believed
that the MCSF project coordinator may have been chosen because of his friendship with
Babauta.

The program manager for the Pacific Islands Training Initiative said that on June 14, 2010, the
Graduate School was awarded a 1-year, $494,000 contract modification to manage MCSF. The
program manager said an MCES was held in Saipan on June 22, 2010, shortly after the contract
was awarded. He explained to the chief executives that the goal of the first year of the contract
was to establish an MCSF “operational center” with “financial procedures” that would eventually
allow MCSF to receive and manage grants themselves. He said he was asked to financially
compensate the MCSF project coordinator and a local attorney for MCSF for work they
performed that was outside the scope of the contract. According to the program manager, the
attorney was disappointed when he learned that Federal procurement regulations and Graduate
School rules prohibited the program manager from providing financial compensation for work
performed outside the scope and limits of the contract.

The program manager for the Pacific Islands Training Initiative said that the MCSF project
coordinator, the attorney, and the MCSF designated representative from Guam questioned the
Graduate School’s procurement methods and felt that the program manager was dictating the
type of projects MCSF could pursue. They also wanted to revisit awarding financial
compensation to the attorney and the MCSF project coordinator.

The program manager for the Pacific Islands Training Initiative said the next MCES, held in
December 2010 on Palau, was going well and that MCSF appeared to be on track until Babauta’s
arrival. According to the program manager, Babauta and the MCSF project coordinator appeared
to be friends and were in “lockstep” with each other during the summit. The program manager
said he attempted to meet with Babauta to give him an update concerning the Graduate School
contract, but Babauta declined to meet with him during the summit. According to the program
manager, Babauta brought the MCSF project coordinator with him to several of the summit



                                                                                               7
meetings, including a private meeting with the chief executives.

The program manager for the Pacific Islands Training Initiative said that after the summit in
Saipan, the MCSF attorney sent him several invoices for payment of Deloitte services and filing
fees, which were paid by the Graduate School. The attorney also asked to be placed on retainer, a
request that the program manager denied. The attorney then sent emails to some of the
designated representatives, stating that the Graduate School was not fulfilling the will of the
chief executives. According to the program manager, the MCSF project coordinator and the
attorney did not want the Graduate School contract extended, preferring that MCSF be financed
via a pass-through grant through UOG.

The program manager for the Pacific Islands Training Initiative said the chief executives sent a
letter to Babauta asking for a no-cost extension to the Graduate School contract, but OIA denied
the request. The program manager said he was not aware of any dissatisfaction expressed by the
chief executives concerning the Graduate School’s performance on the MCSF contract, but it
was clear that Babauta wanted a grant awarded to UOG to manage MCSF.

We interviewed an OIA grant specialist and asked why the MCSF contract with the Graduate
School was not extended and grants to support MCSF were subsequently awarded to UOG. He
replied that it was clear that the contract would be awarded to UOG. He also thought Babauta
specifically directed OIA managers to approve a grant to UOG.

When asked if he thought the distribution of grant funds was being supervised by UOG, the OIA
grant specialist said that funds were awarded to UOG, who in turn provided funds to friends of
Babauta’s, such as the MCSF project coordinator and the MCSF attorney. The grant specialist
further stated that he believed that MCSF used UOG as a pass through to give the guise of
legitimacy.

When asked if he knew the MCSF project coordinator, the OIA grant specialist said he had met
the MCSF project coordinator once on a flight. He said the MCSF project coordinator overheard
that he worked for OIA, and the MCSF project coordinator told him about his friendship with
Babauta. The grant specialist believed that Babauta pressured OIA to provide less oversight to
UOG than would have been provided to other grantees. He stated that the UOG senior official
also had a personal relationship with Babauta.

During his interview, the Governor of Guam said he selected the MCSF designated
representative from Guam and authorized her to make day-to-day decisions regarding Guam’s
involvement. The Governor of Guam said he and the Micronesian chief executives were glad
that MCSF management moved from the Graduate School to UOG.

The Governor of Guam told us that he and Babauta were not personal friends and that he had not
known Babauta before becoming governor. When asked to comment on the DOI OIA grant
policy in Guam, he said he was worried about OIA’s policy of not consulting with the governor’s
office and of awarding grants and compact-impact agreements directly to nongovernment
organizations. According to the Governor of Guam, the governor’s office was more in touch with
issues in Guam than OIA and could ensure that grant and compact-impact funds were effectively



                                                                                                   8
managed.

The Governor of Guam said he complained to then Secretary of the Interior Ken Salazar about
the lack of input he had regarding the distribution of OIA grants and compact-impact
agreements. Salazar referred the matter to Babauta, who did not change the policy. The Governor
of Guam mentioned one egregious case in which Babauta provided grant and compact-impact
information directly to a Guam state senator but did not inform the governor’s office. According
to the Governor of Guam, Babauta’s decision had a major impact on Guam and should have been
handled by the governor’s office.

When we interviewed the MCSF designated representative from Guam, we asked her to explain
why the Graduate School contract with MCSF was not extended. She said she had some
concerns regarding the manner in which the Graduate School managed the MCSF contract. She
said she was suspicious of how the Graduate School hired consultants. She said the Guam
delegates to MCSF preferred that the grant be managed by UOG.

The MCSF designated representative from Guam said she did not know that the Graduate School
denied specific requests from MCSF to compensate the MCSF attorney and the MCSF project
coordinator for work they performed for MCSF prior to the Graduate School contract. She
acknowledged that the MCSF project coordinator and Babauta were friends.

When asked to explain how the grant funds through UOG were being used, the MCSF
designated representative from Guam said the funds were used to create the initial structure of
and get the process started for MCSF. She provided examples of grant fund expenditures, such as
a $1,200 monthly lease for the MCSF office in Hagatna, Guam; compensation for the MCSF
attorney and the MCSF project coordinator for work they performed on previous summit
meetings; and money provided in advance to the Government of Kosrae to host the MCES.

The MCSF designated representative from Guam explained that the Micronesian chief
executives approved the MCSF budget, and UOG managed the grant funds. The specific grant
fund expenditures, she said, were processed through UOG and approved before the money was
spent. The grant funds were deposited into the MCSF account at the Bank of Guam. She said that
she, the MCSF attorney, and the MCSF project coordinator had access to the account and could
withdraw funds.

We asked the MCSF designated representative from Guam if MCSF grant funds were used to
purchase restaurant meals and food for summit participants, to which she replied, “Maybe.” She
said the grant funds were provided in advance to the government hosting the summit. When
asked who was responsible for ensuring that funds were used for authorized purposes, she
replied that it was the responsibility of the host government.

We asked the MCSF designated representative from Guam if Federal procurement regulations
were followed concerning the MCSF employment contracts for the MCSF attorney and the
MCSF project coordinator. She said UOG was responsible for ensuring that Federal procurement
regulations were followed and that the jobs were advertised in the Pacific Daily News. She said
they followed the proper process when they hired the MCSF project coordinator, adding that she



                                                                                                 9
had conducted the MCSF project coordinator’s job interview with a representative from UOG.
She stated she was not concerned about the appearance that the MCSF project coordinator was
preselected for his position because of his previous work experience with MCSF. She added that
she believed the MCSF attorney and the MCSF project coordinator were hired at the direction of
the chiefs.

During a second interview, we asked the MCSF designated representative from Guam to explain
the MCSF rental car policy. She said MCSF did not have a formal policy but followed UOG
requirements. She said grant funds were only authorized to pay for rental vehicles when off-
island MCSF personnel were attending a meeting or event. She acknowledged that the MCSF
project coordinator may have misused an MCSF rental vehicle, but said she did not personally
discuss the matter with the MCSF project coordinator.

The MCSF designated representative from Guam said she was satisfied with the MCSF project
coordinator’s performance of his duties. She based her evaluation of his performance on the
successful completion of the MCES. She admitted that he was not very strong in the day-to-day
details of MCSF-related duties.

We interviewed an employee from the Guam Environmental Protection Agency, who said she
had participated in the MCES for several years. According to this employee, she belonged to an
MCES committee that focused on environmental issues. Her committee came up with the idea to
create an administrative branch for the MCES to organize and coordinate activities.

At the direction of the chief executives, a design team was created to develop a business plan for
the administrative arm, which later became known as MCSF. The Guam Environmental
Protection Agency employee said she and the MCSF project coordinator were on the design
team. She said she was not satisfied with the Graduate School’s overall involvement with MCSF,
leading to MCSF being funded through a Federal grant awarded to UOG.

The Guam Environmental Protection Agency employee believed the Micronesian chief
executives made the actual decision to switch from the Graduate School to UOG. She recalled
that the Governor of Saipan, the MCSF project coordinator, and Babauta all supported the move
to UOG. The President of the Federated States of Micronesia also supported the move but sent a
letter to OIA requesting an extension for the Graduate School contract.

The UOG senior official said his first involvement with MCSF was in September or October
2008. According to the UOG senior official, the Republic of Palau President wanted to create
MCSF as a collaborative effort with UOG to address economic and environmental issues
regarding island sustainability. The Republic of Palau President felt UOG could obtain Federal
funds, and he could receive European Union funds to assist with the creation of MCSF.

According to the UOG senior official, the MCSF idea did not materialize until 2010 when he
signed a memorandum of understanding (MOU) with the Micronesian chief executives to
collaborate on MCSF issues. The MOU did not involve funding from UOG. The UOG senior
official said MCSF initially received funding from the Graduate School. The Micronesian chief
executives became concerned when the Graduate School did not spend the money fast enough.



                                                                                                 10
The UOG senior official said he had a telephone conversation sometime between June and
August 2011 with Babauta and the Governor of Saipan during which they suggested that UOG
apply for a grant to manage MCSF. According to the UOG senior official, he told Babauta and
the Governor of Saipan that UOG could manage MCSF funding faster and with more flexibility
than other agencies but had to obey procurement and personnel rules. UOG subsequently applied
for and received a $50,000 grant to support MCES, and a $400,000 grant to support MCSF.

When asked who initiated the 2011 telephone conversation with Babauta and the Governor of
Saipan, the UOG senior official acknowledged that Babauta organized the telephone call and
made it happen. He said he had conversations with a Guam Environmental Protection Agency
employee, the MCSF project coordinator, and the MCSF attorney in 2008 or early 2009
concerning MCSF and the possibility of obtaining a DOI grant.

The UOG senior official said he knew that grant funds were used to pay both the MCSF attorney
and the MCSF project coordinator for work they accomplished during a previous MCES. When
asked if the MCSF attorney and the MCSF project coordinator were paid for work completed
prior to their contracts, he responded that the MCSF attorney and the MCSF project coordinator
were paid at the chief executives’ request.

According to the UOG senior official, his executive assistant managed the administrative
requirements for the MCSF grant. When asked if he verified the MCSF grant work performed by
the MCSF attorney and the MCSF project coordinator, he responded that he had not. He said his
role was to administer the grant according to the rules and regulations and to accommodate the
MCES. He said he was not interested in MCSF. We asked him if he was comfortable with the
MCSF attorney’s and the MCSF project coordinator’s performance concerning their contracts
with UOG and MCSF. He responded that he was only interested in making sure that all work
under the grant was completed according to UOG procurement rules.

When we asked the UOG senior official if the grant funds were being properly expended, he
stated that he believed they were because the request for payment came from the Micronesian
chief executives.

A UOG executive assistant said that a few years ago, the MCSF project coordinator and a Guam
Environmental Protection Agency employee gave a presentation to the UOG senior official in
which they discussed MCSF and their desire to partner with the university. According to the
executive assistant, at the time, the Graduate School provided assistance to MCSF through a DOI
contract, but the chief executives did not want to continue the contract. As a result, UOG applied
to provide the technical assistance via a grant.

The UOG executive assistant said she filled out the application and met with the MCSF project
coordinator and a Guam Environmental Protection Agency employee to ensure that UOG
addressed the chief executives’ needs for assistance. The executive assistant said that each of the
chief executives also had direct representatives, whom she tried to include in the meeting. She
said the MCSF project coordinator suggested that she add a portion about creating a physical
office to house MCSF.




                                                                                                 11
The UOG executive assistant said the MCSF project coordinator indicated that he had previously
completed work for MCSF for which he was not compensated. She recalled that one of the
payments made through the grant reimbursed the MCSF project coordinator for his work at the
December 2011 summit in Kosrae. The executive assistant said the MCSF attorney also received
reimbursement for that time. She believed that the OIA director of technical assistance may have
authorized the reimbursement. According to the executive assistant, the MCSF project
coordinator’s reimbursement request totaled $5,500. The executive assistant said the MCSF
attorney sent detailed billings for his work preparing documents for MCSF.

When discussing the office space rented by MCSF, the UOG executive assistant stated that she
did not see the lease but had spoken with the landlord. She said she explained to the landlord that
UOG was only covering the rent and that whatever agreements or arrangements he made with
MCSF would not involve UOG.

When asked about the hiring process for the MCSF attorney and the MCSF project coordinator,
the UOG executive assistant stated that a request for proposal (RFP), written by her and the
MCSF designated representative from Guam, appeared in a local newspaper for 1 day.
According to the executive assistant, the MCSF project coordinator was the only applicant for
the position. The executive assistant stated that three individuals applied for the attorney
position.

The UOG executive assistant did not know if the MCSF project coordinator provided input to the
MCSF designated representative from Guam concerning the RFP. She believed that the RFP
stated the applicant should have prior experience with MCSF but was not certain. The executive
assistant said she was concerned with the MCSF project coordinator’s selection because she felt
he was incompetent. She referred to him as a “name dropper” who often used Babauta’s name
when things were not being done as quickly as he wanted. She interpreted this as his attempt to
pressure her to do something. She said she had never been under the impression that OIA
expected UOG to do anything for him.

The UOG executive assistant recalled that the MCSF project coordinator had said he had done a
lot of work on behalf of MCSF, but she did not know if there was any measurable output. She
questioned the MCSF project coordinator’s work ethic but said she had no problems or issues
with the MCSF attorney and said he appeared to be competent.

We asked the UOG executive assistant about a reimbursement to Kosrae for the 16th MCES that
described meals being purchased with grant funds. She was not sure if the expenditures were a
legitimate use of grant funds or if receipts had been submitted to support the amount spent.

The UOG executive assistant believed UOG did not have space to house MCSF and that MCSF
did not want to be located at UOG. She recalled being pleased to pass the grant administration
duties to a UOG senior official for graduate studies. She said the grant took up too much of her
time, and she disliked dealing with the MCSF project coordinator. According to the executive
assistant, the senior official managed UOG’s Center for Island Sustainability, which linked him
to the MCSF grant administration.




                                                                                                12
The UOG executive assistant stated that while MCSF might believe it did not need to adhere to
rules, UOG held it accountable. She said the MCSF designated representative from Guam
understood the need to adhere to rules but still believed that she would push for the chief
executives to get what they wanted.

The UOG senior official for graduate studies, who administered the MCSF grant after the UOG
executive assistant, said he tasked the UOG program coordinator to help him with the grant. The
senior official said the first task he dealt with as grant administrator was the MCES in Majuro,
Republic of the Marshall Islands, which occurred in October or November 2012. As the senior
official and the UOG program coordinator became involved with the management of the grant,
the senior official said they had to get various business procedures in line and make sure that
everything was going to be done according to both OIA guidelines and the guidelines of the
Government of Guam.

The UOG senior official for graduate studies said they mostly worked with the MCSF attorney,
relying on his experience to ensure they followed all regulations. Since his involvement, the
senior official said, he believed work had been conducted according to OIA rules. The senior
official said he had also been working with the MCSF project coordinator but mainly dealt with
the MCSF attorney and the MCSF designated representative from Guam.

The UOG senior official for graduate studies said that since he assumed control of the MCSF
grant, UOG had not audited every transaction because of the rush to prepare for the MCES. He
believed UOG was behind on auditing transactions but was becoming more responsive in that
area.

The UOG senior official for graduate studies said the UOG program coordinator was reviewing
the most current invoices received from MCSF grant expenditures with the MCSF attorney. The
senior official said some of the invoices included payments to the MCSF attorney and the MCSF
project coordinator. These invoices were broken down by specific tasks that had been performed.
When asked why MCSF rented an office instead of being housed at UOG, the senior official said
the university did not have much available space.

When we interviewed the UOG program coordinator, we asked her if she had any concerns about
the MCSF grant. She said the UOG senior official for graduate studies introduced her to the
MCSF project coordinator in September 2012. The UOG program coordinator said UOG
authorized the MCSF project coordinator to provide $15,000 to the RMI government to prepare
for the 18th MCES to be held in Majuro in November 2012. The grant money was provided
because MCSF needed to start preparing for the summit.

According to the UOG program coordinator, during a 3-day, presummit meeting in preparation
for the 18th MCES, the MCSF project coordinator rented several cars from Blake’s Car Rental
for the presummit attendees. The UOG program coordinator stated that one of her employees
received a telephone call from the owner of Blake’s Car Rental reporting that the MCSF project
coordinator had kept one of the vehicles for longer than anticipated, and the bill had not been
paid.




                                                                                               13
In addition, the UOG program coordinator said that the MCSF project coordinator told her the
MCSF office needed to be renovated. She thought this was unusual because UOG’s grant
recipients typically rented office space that was ready for occupancy and did not require
renovation. The MCSF project coordinator gave the UOG program coordinator a tour of the
MCSF office, and she believed he wanted to use grant funds to build a conference room and a
receptionist area. According to the UOG program coordinator, the office was rundown and in
need of major repair and renovation.

The UOG program coordinator asked the MCSF project coordinator why he chose that particular
location for the MCSF office. He told her MCSF wanted to be close to the ocean and close to the
Association of Pacific Island Legislatures (APIL), because MCSF and APIL collaborated on
certain projects. She said that during the 18th MCES she learned that MCSF and APIL did not
have a close working relationship.

We interviewed the MCSF attorney, who said he began providing free legal services for MCSF
in 2008, expecting he would eventually be given a part-time job. He met with the UOG senior
official to discuss the MCSF grant. He was under the impression it would be a pass-through
grant, allowing MCSF to control distribution of funds. According to the MCSF attorney, the
UOG senior official made it clear that UOG would control distribution of the grant funds.

When asked why the Graduate School contract to support MCSF was terminated, the MCSF
attorney said the Graduate School was actively involved in policy issues, and that was not what
Guam wanted. According to the MCSF attorney, the MCSF designated representative from
Guam was dissatisfied with the Graduate School’s management of the contract. The MCSF
attorney initially said he was not aware of any requests to the Graduate School to compensate
him or the MCSF project coordinator for services provided to MCSF, but he later acknowledged
that the MCSF project coordinator may have submitted invoices and requested payment.

Regarding the MCSF office lease, the MCSF attorney said UOG wanted to provide staff and
office space on the UOG campus, but MCSF wanted to be independent and did not want UOG to
use grant funds to pay for staff or space. When asked why MCSF rented an office that needed
renovation, he said it was near the ocean and in the same building as APIL, who they routinely
worked with. He said the lease was less expensive than two other quotes they received. The
MCSF attorney acknowledged the MCSF office was recently furnished, and that the MCSF
project coordinator may have asked UOG to use grant funds to renovate the office space.

When asked to discuss items purchased in support of the 18th MCES in Majuro, the MCSF
attorney indicated that the MCSF project coordinator organized the summit and had given the
Republic of the Marshall Islands $15,000 for summit expenses. The MCSF attorney
acknowledged some of the money may have been used to purchase meals for the summit
participants and other unauthorized expenditures.

The MCSF attorney also acknowledged that the MCSF project coordinator may have kept rental
cars longer than necessary, used rental cars for personal reasons, and attempted to pay for
personal rental cars using grant funds. We asked the MCSF attorney why the MCSF project
coordinator attempted to misuse grant funds. He said the MCSF project coordinator did not have



                                                                                               14
a car that worked and that, based on what he knew, the MCSF project coordinator’s only income
came through MCSF.

We interviewed the special assistant to the President of Majuro and the chief of staff to the
President of Majuro. They both said they flew to Guam in early October 2012 to attend a
presummit meeting for the 18th MCES, held on Majuro in November 2012. The MCSF project
coordinator arranged the meeting and provided them with a rental car to share while they were
on Guam. The chief of staff said they left Guam on October 8, 2012, and gave the rental car to
the MCSF project coordinator. According to the chief of staff, a few days after he returned to
Majuro he received an email from the rental car company indicating the car had not been
returned. The chief of staff contacted the MCSF project coordinator and expressed his concern,
saying he did not want his credit rating damaged by the MCSF project coordinator’s failure to
return the rental car on time. The chief of staff said the MCSF project coordinator apologized
and said MCSF funds would be used to pay for the rental car.

When asked about funding for the 18th MCES, the special assistant and the chief of staff to the
President of Majuro said the MCSF project coordinator provided the Republic of the Marshall
Islands with $15,000 in grant funding before the summit. The special assistant said they used the
money to purchase executive chairs and pay for summit dinners and supplies. According to the
special assistant, the MCSF project coordinator approved all of the purchases in advance. The
special assistant said the MCSF project coordinator promised them another $15,000 in grant
funding to pay for the remaining summit costs, but they never received the money. The special
assistant said he was upset because they used the Republic of the Marshall Islands funds to pay
for the remaining summit costs. The chief of staff added that the MCSF project coordinator
promised to use MCSF grant funds to pay for their airfare. According to the chief of staff, he and
the special assistant used the Republic of the Marshall Islands funds to purchase their tickets and
were never reimbursed.

When asked about the MCSF project coordinator’s performance, the special assistant to the
President of Majuro said he was suspicious of the MCSF project coordinator’s actions during the
17th MCES held on Guam in March 2012. According to the special assistant, the MCSF project
coordinator arranged a meeting during the summit between the chief executives and Babauta.
The MCSF designated representatives and staff were not allowed to attend the meeting. The
special assistant to the President of Majuro felt the exclusion of the MCSF designated
representatives and staff placed the Micronesian chief executives at a disadvantage because their
staffs had been unavailable to provide information with which to make important decisions.

We interviewed an employee from Blake’s Car Rental in Tamuning, Guam. He said the MCSF
project coordinator rented three cars in October 2012, all of which were paid for by UOG using
Federal grant funds. According to the employee, the MCSF project coordinator kept one of the
cars for 2 weeks—1 week longer than the contract specified. The employee notified UOG, and
UOG officials indicated that they would only pay for the original contract period. The employee
said the MCSF project coordinator still owed the difference to Blake’s Car Rental and could no
longer rent cars from the company until he paid off his debt.

We also interviewed an employee from Payless Car Rental in Tamuning, Guam. She said the



                                                                                                15
MCSF project coordinator rented a car in March 2012 that was paid for by UOG using Federal
grant funds. According to the employee, the MCSF project coordinator did not have a valid
driver’s license, so she could not put his name on the rental contract. She said the MCSF project
coordinator’s friend provided a valid driver’s license. The rental contract was in the friend’s
name, but, according to the Payless Car Rental employee, the friend did not appear to be
affiliated with MCSF or UOG.

The Payless Car Rental employee said the MCSF project coordinator returned the vehicle on
March 21, 2012, 5 days after the anticipated return date. She inspected the vehicle and
discovered it had been damaged. According to her, the MCSF project coordinator was in an
accident while operating the vehicle. She said she called the UOG executive assistant and told
her about the MCSF project coordinator’s accident in the rental car. The Payless Car Rental
employee said she did not require the MCSF project coordinator or UOG to pay for the repairs to
the vehicle because the cost was minimal, and she did not want the incident to interfere with
future business with UOG.

We interviewed the president of Carl Rose Realty Inc., in Tamuning, Guam. We asked him if he
leased property to the MCSF project coordinator. He said the MCSF project coordinator rented
two properties, both located at 181 East Marine Drive, in Hagatna, Guam. According to the
president of Carl Rose Realty, UOG paid for suite #206 and the MCSF project coordinator paid
for suite #210. Rental payments for both properties were up to date. The president of Carl Rose
Realty said the MCSF project coordinator expressed an interest in renovating suite #206, which
was the MCSF office. He said the MCSF project coordinator lived in suite #210 and paid the rent
in cash.

We interviewed the owner of Ideal Advertising in Tamuning, Guam, who said he met the MCSF
project coordinator in 2005 while the MCSF project coordinator was working with a recycling
company. They met again in July 2011, when the MCSF project coordinator asked the owner to
create a banner design for the 15th MCES. According to the Ideal Advertising owner, his
company spent approximately 10 hours preparing the banner design, and the MCSF project
coordinator spent about 1 hour providing them the technical guidance necessary to complete the
project. He said he did not charge the MCSF project coordinator for the work performed but that
it would have cost around $850.

The owner of Ideal Advertising said the MCSF project coordinator contacted him in late 2011 or
early 2012 requesting that his company design a website and a vertical banner and provide
conference materials for the 16th MCES. Ideal Advertising was paid $3,723.20 for the work and
materials requested. The owner said the MCSF project coordinator spent approximately 3 hours
providing guidance on the project.

The owner of Ideal Advertising said his next project with MCSF was around November or
December 2012 when he was asked to provide conference materials for the 18th MCES. The
company was paid $6,567.80 for the materials, and the MCSF project coordinator spent about 3
hours assisting with the project.

We interviewed the MCSF project coordinator, who was asked to explain how support for MCSF



                                                                                               16
transitioned from a contract with the Graduate School to a UOG grant. He said the genesis for
the idea was the MCSF memorandum of understanding between the UOG senior official and the
President of the Federated States of Micronesia. According to the MCSF project coordinator, the
chief executives later decided not to extend the Graduate School contract, but their decision was
not unanimous. When asked if the chief executives based their decision on his recommendation,
the MCSF project coordinator acknowledged that he and an employee from the Guam
Environmental Protection Agency discussed the Graduate School contract with the President of
the Federated States of Micronesia, who was already inclined to deny the Graduate School
contract extension request.

When asked if he was friends with Babauta, the MCSF project coordinator said he and Babauta
worked together on the election campaigns for two Guam delegates to the U.S. House of
Representatives. He described his 15-year relationship with Babauta as a friendship based upon
their affiliation with the same political party. We asked him if he suggested that Babauta deny
the Graduate School’s request for a no-cost extension to the MCSF contract. He admitted that he
emailed Babauta, recommending awarding a grant to UOG and terminating the Graduate School
contract.

The MCSF project coordinator acknowledged the work performed by the Graduate School for
MCSF formed the basis for his management procedures for MCSF. He denied asking the
Graduate School to compensate him for work he had previously performed in support of MCSF,
but he admitted there was an assumption that he would be compensated. He said that he
generated ideas for MCSF and brought people together. The only income he was receiving was
from MCSF, and he was not otherwise employed. When asked where he resided, he said he
rented a room in the same building in which the MCSF office was located.

We asked the MCSF project coordinator to provide records supporting the hours reflected on his
invoice to UOG concerning the work he performed in preparation for the 15th and 16th MCES.
He said he did not actually attend the summits. He acknowledged the hours reflected on his
invoice were an estimate, and the actual hours he worked in support of the summits were not
documented. He considered the successful completion of MCES as the deliverable for his MCSF
contract with UOG.

When asked why he located the MCSF office at 181 East Marine Drive, Suite 206, in Hagatna,
Guam, the MCSF project coordinator said the location was close to APIL and was less expensive
than the other two potential offices. We asked him when the office was leased and when it
became fully functional. He said the office was leased in July 2012 but did not become fully
furnished, decorated, and functional until January 2013. When asked why it took so long for the
office to become functional, he said the office was in poor condition when they signed the lease,
and the procurement process for the furniture took a long time. According to the MCSF project
coordinator, OIG’s visit inspired them to complete the renovation and furnish the office.

The MCSF project coordinator was asked to explain a $500 invoice from the Touro Café in
Guam in October 2012. He said the MCSF designated representatives held a presummit meeting
for 2 days at the Touro Café in preparation for the upcoming summit. When asked why the
meeting was not held at the MCSF office, he replied the office was not furnished at that time.



                                                                                               17
When asked about the MCSF rental car policy, the MCSF project coordinator acknowledged that
he asked his friends to sign for rental cars because he did not have a valid driver’s license in
Guam. He said he did not have a working, personal car and admitted he sometimes kept MCSF
rental cars for longer than necessary to use for personal reasons. He admitted he was involved in
two motor vehicle accidents while operating rental cars reserved for MCSF.

The MCSF project coordinator also acknowledged that he provided the government of the
Republic of the Marshall Islands with a $15,000 grant fund advance to host the 18th MCES on
the island of Majuro during November 2012. He provided copies of invoices from the summit,
including $4,950 for an executive summit dinner, $400 for flowers, $240 for dignitary flag poles,
$3,962 for office supplies, $2,220 for 12 executive chairs, and $500 worth of seafood. When
asked to explain the charges for items that did not appear to be within DOI regulations
concerning grant and conference funding, he replied that the charges were authorized by the
Micronesian chief executives and the Republic of the Marshall Islands government.

OIA reviewed the two technical assistance grants awarded to UOG to determine if applicable
rules, regulations, and procedures were followed concerning the implementation of grant-funded
activities and expenditures. OIA determined that according to Federal regulations (43 C.F.R. §
12), $32,636.34 was deemed unallowable. The unallowable costs included funding for gifts,
hotel room charges, rental car charges, food, flowers, furniture, and meeting expenses.

Agent’s Note: Interviews and a review of the grant invoices by OIG determined that the MCSF
project coordinator authorized all of the unallowable charges and that he requested payment of
an additional $15,295 for his services that OIA could not verify based on the documents
provided by UOG.

OIA reported the results to UOG in a July 12, 2013 memorandum from Acting Assistant
Secretary for Insular Affairs Eileen Sobeck to the UOG senior official. Sobeck informed the
UOG senior official that OIA was terminating the grants and that the remaining funds—
approximately $378,818—were being deobligated and returned to the Federal Government.

Guamanian Nongovernmental Organization Payu-Ta

We asked an OIA special assistant about a grant issued to Payu-Ta, Inc., Guam’s umbrella
association of nongovernmental organizations, in August 2011. Information obtained by
investigators indicated that the OIA grant review committee recommended that the grant be
denied, but Babauta overruled them and awarded the grant. The special assistant recalled that the
grant application might have been to support the attendance of a specific delegation at a
conference in Hawaii. Although she did not recall specific information, the special assistant
believed Payu-Ta might not have had the ability to provide a financial report to satisfy grant
application reporting requirements. She also believed funding for the grant was made through the
Guam Community College (GCC), which had the ability to account for grant fiscal requirements.
The OIA special assistant recalled that Babauta showed a particular interest in this grant. She
understood that Babauta had attended this conference in the past. According to the special
assistant, leaders from insular areas throughout the Pacific attended the conference, and Babauta
believed it was a worthwhile event. The special assistant said Babauta did not have a personal



                                                                                              18
relationship with any grant recipients.

When interviewed about the Payu-Ta grant, the OIA Guam employee said that the Payu-Ta
director was mentioned in the grant issued to GCC on behalf of Payu-Ta, even though people
were not supposed to be preselected for the jobs. When asked about Babauta’s interest in the
Payu-Ta grant, the OIA Guam employee said Babauta would sit in on grant meetings because he
had friends involved in the grant, including the Payu-Ta director.

When we interviewed the Payu-Ta director, she explained the main purpose of Payu-Ta was to
provide financial and grant management training to nonprofit organization members in an effort
to make the members more self-sufficient.

When asked about the DOI grants to GCC concerning support for Payu-Ta, the Payu-Ta director
said Payu-Ta applied directly to DOI for grants, which were denied because of its lack of
experience performing according to Federal grant requirements. The Payu-Ta director said she
went to Washington, DC, to talk to the DOI OIA staff in an effort to learn how to improve Payu-
Ta’s grant applications. In spite of her efforts, OIA did not award a grant directly to Payu-Ta.
She said DOI agreed to award the grants if they were managed by GCC.

We asked the Payu-Ta director if she approached Babauta for help. She said she and Babauta
discussed the grant applications, but she never directly asked him for help. She acknowledged
she knew Babauta but said they were not personal friends.

We asked the Payu-Ta director how the grant funds were used. She said Payu-Ta was not a direct
recipient of the grant funds. She said she did not see the GCC financial reports, but she assumed
the funds were used to pay for travel, lodging, and registration fees for nonprofit training events
in Hawaii and Guam.

We asked the Payu-Ta director if the MCSF project coordinator attended events sponsored by the
GCC Payu-Ta grants. She said he attended a conference in Hawaii and was fully engaged during
the event. When asked if Babauta and the MCSF project coordinator were friends, the Payu-Ta
director said she got the impression from the MCSF project coordinator that he and Babauta
were friends.

We interviewed the executive director of Guma’ Mami Incorporated. She said she managed the
Payu-Ta grants that were awarded to GCC and that the Payu-Ta nonprofit organization was the
subrecipient of the grant. The executive director said Payu-Ta was an umbrella organization for
other nonprofit organizations that provide support to each other on Guam.

The executive director of Guma’ Mami said Payu-Ta had not directly received any grants from
OIA. She stated that in 2011, they applied for a grant directly through OIA, but the application
was not accepted due to the lack of fiscal management personnel in place at Payu-Ta. She said
OIA decided to give the grant to GCC to serve as a fiscal intermediary for Payu-Ta.

The executive director of Guma’ Mami did not know whose idea it was to award the grants to
GCC, but she said much of the communication between Payu-Ta and OIA was handled by the



                                                                                                   19
Payu-Ta director. The executive director of Guma’ Mami also said: “I don’t think that [Guam
Community College] was the . . . only choice. I think the University of Guam was also another
choice that we could have had to go through [as] the intermediary.”

The executive director of Guma’ Mami said she believed Payu-Ta received between $40,000 and
$50,000 for the first grant in 2011, which they used for a conference in Guam that gathered
people from various organizations for training. She said Payu-Ta also received a second grant to
fund members’ travel to and participation in the CNHA conference in Hawaii. She thought the
conference occurred in October 2012.

The executive director of Guma’ Mami said the MCSF project coordinator was a consultant for
Payu-Ta and helped plan and coordinate their conference. The MCSF project coordinator
assisted with marketing, setting up the website, and putting ads together. The MCSF project
coordinator originally contacted the executive director of Guma’ Mami and volunteered to help
Payu-Ta with their conference. The executive director of Guma’ Mami knew of the MCSF
project coordinator but had not met him before. She believed the MCSF project coordinator may
have found out about the upcoming Payu-Ta conference through the Payu-Ta director. She also
said Payu-Ta members had worked with the MCSF project coordinator on other community
projects. The executive director of Guma’ Mami said she was dissatisfied with the overall
performance that the MCSF project coordinator provided to the Payu-Ta conference. She said
that he finished every task but that the quality of materials he obtained was not what she
expected.

The executive director of Guma’ Mami said she knew Babauta prior to him becoming the
Assistant Secretary, but they did not have a friendship. She was not aware of any connections
between the MCSF project coordinator and OIA, but she believed he knew Babauta. She was
unaware of the nature of their relationship as well as of any personal relationships between
Babauta and anyone at Payu-Ta or at GCC that may have assisted these organizations in
obtaining grants.

We interviewed the GCC president and GCC vice president. They said there were two grants
awarded from DOI to GCC in support of Payu-Ta with no sub-recipient for the grants. GCC
controlled the grant funds and did not provide funds directly to Payu-Ta.

The GCC president and vice president said the first grant totaled $92,000 and was awarded to
GCC on August 9, 2011. The grant allowed Payu-Ta to participate in the CNHA convention held
in Honolulu, HI, in August 2011 and to host the second nonprofits’ congress held in Guam in
October 2011. The majority of the funds were used to pay for travel, expenses, and lodging for
Payu-Ta-sponsored personnel to attend the convention in Hawaii and to pay for guest speakers at
the nonprofits’ congress in Guam. The second grant totaled $45,000 and was awarded to GCC
for Payu-Ta to participate in the CNHA annual conference on social and economic development
held in Honolulu in October 2012.

We asked the GCC president and vice president if the MCSF project coordinator participated in
the CNHA conventions held in Honolulu. They confirmed that he traveled to Honolulu and
participated in the August 2011 convention. His travel, lodging, and expenses were paid with



                                                                                                20
GCC grant funds. According to the GCC president and vice president, the executive director of
Guma’ Mami recommended that the MCSF project coordinator attend the convention. They
indicated that he was an active participant at the convention and that he attended to receive
training concerning grant applications and obtain funding for nonprofit organizations. The GCC
president and vice president said the MCSF project coordinator expressed an interest in attending
the 2012 conference in Honolulu, but he decided not to attend after he was told that GCC would
not provide full funding for participants.

When asked if they were familiar with Babauta, both the GCC president and vice president
acknowledged they had professional relationships with him. According to the GCC president,
Babauta attended the 2011 CNHA conference, where she met with him and discussed GCC DOI
grants.

When asked about his knowledge of the Payu-Ta grant, Babauta recalled that OIA provided
Payu-Ta with grant funds in 2011 so it could attend conferences in Hawaii. He said the Payu-Ta
director then requested a $400,000 grant for operational support of Payu-Ta in 2012, and his staff
advised him not to award the grant. Babauta did not specifically recall if the GCC president, the
Payu-Ta director, or anyone else representing Payu-Ta contacted him for advice prior to
submitting their grant application. He believed, however, that the Payu-Ta director might have
sent the request directly to him, which he then forwarded to OIA staff. He recalled asking the
Payu-Ta director to brief his staff about her organization when she was in Washington, DC.
Babauta acknowledged that he was friends with both the Payu-Ta director and the GCC
president.

Mistreatment of Employees

We investigated the following allegations, some of which came from the original complaints
brought forward by OIA directors and others developed from interviews with OIA employees,
alleging that Babauta mistreated OIA employees:

   •   Babauta made inappropriate and sexual comments to female employees.
   •   Babauta rubbed the shoulders of a female employee.
   •   Babauta offered a female intern alcohol in his office.
   •   Babauta used foul language in front of, and directed at, employees.
   •   Babauta discriminated against older, male employees.

We interviewed an OIA employee in the grants division, who described Babauta as a bully.
When asked about the allegations of sexual harassment, he said that at an OIA holiday party in
2011, Babauta walked into the room and put his hands on the shoulders of an OIA U.S. Virgin
Islands employee and whispered something in her ear. When Babauta left the room, the OIA
Virgin Islands employee, who appeared intoxicated, became very upset and said: “I’m not his
fucking wife.” The grants division employee also reported that when he, Babauta, and an OIA
employee in the technical assistance division returned to the office on one occasion, Babauta
observed a female employee wearing “spiked heels” and commented: “I’ve always thought that a
woman should have a pair of whore shoes to wear.” He later clarified that Babauta said “hooker”
shoes.


                                                                                               21
When interviewed, the OIA Virgin Islands employee said that Babauta had never sexually
harassed her, and she never had any incidents with him that caused her concern. She
acknowledged that she drank a glass of wine and became emotional at the holiday party but did
not recall saying: “I’m not your effing [sic] wife.” She explained that she was upset because she
did not want to perpetuate a rumor that she and Babauta had a relationship outside the office,
which she said was not true. When asked about reports that Babauta touched her shoulders, she
said his actions were more like a pat on the shoulder, and she was not offended by it. We asked
the OIA Virgin Islands employee, who is Asian, if she ever heard Babauta make any disparaging
comments about any ethnic group or gender, and she responded that he called her “Big China”
but stopped at her request. She did not believe Babauta was being mean or malicious when
calling her that name.

The OIA grants division employee also said Babauta had mistreated two male employees in the
office: an OIA Commonwealth of the Northern Mariana Islands (CNMI) field representative and
an OIA congressional and legislative affairs staff assistant. Babauta threatened to reassign the
field representative, so the field representative retired, and Babauta publicly shouted profanities
at the staff assistant for not performing well. The grants division employee also recalled hearing
Babauta say he would only hire minorities and women to work on his staff.

When we asked the OIA technical assistance division employee about Babauta’s conduct, she
said that Babauta sometimes made off-color jokes, but that they were typical of jokes made by
other male colleagues. She said Babauta once sat in a chair that she just vacated and exclaimed:
“Man your butt is hot!” She later clarified that he actually said “ass.” Although she thought
Babauta’s comment was inappropriate, she did not say anything to him about it. She also recalled
that both Babauta and another male colleague (whom she declined to name) told her that she
should wear high heels, rather than flats, because they looked better on women. She recalled
hearing Babauta use the term “hooker shoes” or something similar at some point but said the
term was not used to describe her shoes.

The OIA technical assistance division employee recalled an OIA employee picking up Babauta
following 24 hours of travel from Guam. While Babauta was waiting for the employee to take
him home, Babauta came into the OIA technical assistance division employee’s office to discuss
something, and then appeared to fall asleep on her couch. Although she said Babauta’s conduct
did not bother her, she described it as strange. She was aware that her colleagues saw him asleep
in her office and were taken aback.

The OIA technical assistance division employee said that based on Babauta’s hiring decisions,
she believed he seemed most comfortable interacting with younger females than with other
employees. She said he directly hired the OIA Virgin Islands employee, the OIA counselor and
director of policy, a program analyst, and a special assistant, all of whom were females. She
believed, however, that his preference could have resulted from performance issues with some of
the older males in the office. In general, the OIA technical assistance division employee thought
Babauta needed to conduct himself in a more professional manner, but she would not label his
conduct as sexual harassment.

An OIA project grant manager recalled witnessing the incident when Babauta reportedly told the



                                                                                                 22
OIA technical assistance division employee that she had a “hot ass.” He said Babauta had to do
work on her computer, and that when he sat down in her chair, he apparently felt that the seat
was warm and said: “Oh, you have a hot ass.” According to the grant manager, Babauta repeated
this comment multiple times and was laughing when he said it. The grant manager said that the
look on the OIA technical assistance division employee’s face suggested she thought Babauta’s
comment was inappropriate.

We interviewed an intern who worked for OIA from September 2010 until August 2011. When
asked to characterize Babauta’s behavior, she responded that Babauta was a “shady guy,” who
sometimes made inappropriate comments. She said he often complimented her on her clothes
and told her she was wearing “sexy shoes.” On one occasion, she said, Babauta invited her into
his office and offered her a drink from a bottle of liquor. She declined the offer and later
complained to the OIA counselor and director of policy that Babauta made her feel
uncomfortable. She later confronted Babauta telling him that his comments and actions were
inappropriate, and she wanted to be treated with respect and in a professional way. Babauta
apologized to her, and she said he did not make any more inappropriate comments to her for the
remainder of her time at OIA.

OIA Director Nikolao Pula said he became concerned a few months after Babauta became the
assistant secretary when Babauta selected four young women to work closely with him and travel
with him frequently. When asked if these women received any promotions, he said he was not
aware of this. When asked about Babauta’s treatment of the males in the office, Pula said
Babauta wanted him to remove an OIA deputy director from his position because Babauta did
not have any faith in him, and that employee was eventually moved to a different position. He
also heard Babauta yelling profanities at an OIA congressional and legislative affairs staff
assistant on one occasion, appearing to show off how he disciplined employees whom he
believed performed poorly.

The OIA congressional and legislative affairs staff assistant said Babauta occasionally raised his
voice and spoke disparagingly to him. He felt that Babauta discriminated against employees
based on age and sex, explaining that Babauta made a spectacle of how long the staff assistant
had worked for OIA. He said it appeared Babauta only took adverse action against male
employees, explaining that he abolished the position of a former OIA employee, forcing him to
take another position outside of OIA. According to the staff assistant, a CNMI field
representative decided to retire rather than continuing to work for Babauta.

The OIA counselor and director of policy also recalled Babauta yelling at the OIA congressional
and legislative affairs staff assistant. She specifically said she heard Babauta frequently use “the
F word.” She asked Babauta about the altercation, and he appeared pleased with himself for
berating an employee, she said. She went on to say that Babauta liked to intimidate and belittle
employees. She described him as a bully.

An OIA deputy director said Babauta would call him around 5:00 p.m. every Sunday to berate
him for his job performance. He said Babauta frequently raised his voice and used profanity
during these calls. The deputy director recalled a period of time, roughly 2 years ago, during
which Babauta asked older employees when they were going to quit. He said there was a feeling



                                                                                                  23
in the office that Babauta was eager to get older staffers out and hire younger people who would
agree with him.

Another OIA employee, who requested confidentiality, said that when Babauta first came to
OIA, he asked the employee: “How do I get rid of the old people?” referring to older OIA
employees.

We interviewed Babauta about these complaints and allegations. When asked if he rubbed the
OIA Virgin Islands employee’s shoulders at the office party and whispered in her ear, Babauta
stated: “I don’t know,” and then said he did not recall doing this. He acknowledged that he might
have touched her shoulders and/or whispered in her ear, but his actions might have been
misinterpreted. He later stated: “It could have been something like just going behind her and
needing to tell her something and she was in a crowd . . . and, you know, whispering to her.”

Babauta denied that he ever acted inappropriately toward any of the females in the office. When
asked if he had ever made the statement that every woman should have a pair of “hooker shoes”
under her desk, as alleged, Babauta replied that he had not. Later in the interview, Babauta
remembered a conversation with the OIA intern during which he said “something about her high
heels, just how high they were.” After she informed him that the comment made her feel
uncomfortable, he did not speak to her again. When asked if his comment could have been
insinuating something along the lines of “hooker shoes,” he said it was possible. He later stated:
“When I got the reaction it took me back, and I wanted to make sure that I didn’t do anything
like that again.”

Directly after this interview, Babauta requested to speak with OIG agents again about the
allegations pertaining to the OIA intern’s shoes. He was interviewed again the same day and
recalled telling the intern that she had “nice heels.” After she told him that this statement made
her feel uncomfortable, he apologized, but he later said he did not think his remarks were
inappropriate.

Several days after speaking with Babauta, he sent an email to agents that stated the following
about his conversation with the OIA intern: “I believe I told [the OIA counselor and director of
policy] that I had complimented her and [the intern’s] response that she felt uncomfortable took
me by surprise. Beyond that, I was certainly more mindful if I spoke to her and generally tried to
keep my distance or to be sure that someone else was in the room with me.”

During subsequent interviews, Babauta denied offering the OIA intern a drink of liquor while at
work but admitted that he kept a bottle of Johnny Walker scotch in his office for 2 weeks after a
trip before taking the bottle home. He said he did not consume any of it while in the office.

We also asked Babauta about his alleged comments to the OIA technical assistance division
employee regarding the temperature of her chair. He explained that he would occasionally go
into her office to discuss something and would end up using her computer. Babauta said that on
one occasion when he sat in her chair, he told her: “That’s a warm ass that you had because . . .
the seat is warm.” When asked if he could have said something to the effect of “you have a hot
ass,” Babauta replied that he might have, but he was only referring to the temperature of the seat



                                                                                                     24
in a joking way.

Babauta denied that he provided preferential treatment to young females and said that he did not
discriminate against older males. Babauta said he was not satisfied with the OIA deputy
director’s performance as an acting director, so he placed the current director in the position. The
former acting director later took the deputy director position.

We asked Babauta about the hiring and promotions for the four positions he created after his
appointment, into which he hired four women. Babauta said he was the deciding official because
the employees in these positions would be working closely with him. The program analyst, the
special assistant, and the OIA Virgin Islands employee were promoted or received raises since
they were hired, and the OIA counselor and director of policy may have as well. He said that he
hired them not because of gender but because he knew them from when they worked on Capitol
Hill, and they were “terrific performers.”

Regarding the older employees in his office, Babauta said he had never stated that he would like
to see them retire or leave. Rather, he had issues with those who did not perform, some of whom
were older, but he never fired or removed anyone since he arrived at OIA.

Misuse of Government Equipment and Personnel

We investigated the following complaints that Babauta allegedly misused Federal property and
personnel:

   •   Babauta had an employee drive him to personal events, run personal errands in a
       Government vehicle, and generally perform work outside the scope of his official duties.
   •   Babauta requested that an employee draft a PowerPoint presentation for his daughter.
   •   Babauta pressured an employee into allowing him to live rent free in her home for several
       months while he was separated from his wife.
   •   Babauta had an employee pick up his daughter in a Government rental vehicle while
       traveling in Guam.
   •   Babauta had an employee pick up his girlfriend at an airport and then drive them around
       over the weekend.
   •   Babauta had an employee drop off and pick up his clothes at the DOI dry cleaners.

An OIA deputy director said that in November 2009, Babauta asked a former OIA administrative
officer who is now deceased, to pick him up for work at his Alexandria, VA, residence in the
former administrative officer’s personal vehicle. Babauta told the former administrative officer
to use his personal car and not the Government vehicle because that was not permitted. The OIA
deputy director said it was inappropriate for Babauta to reach three levels down to an
administrative officer and ask for a personal favor. The OIA deputy director said the former
administrative officer told him about the incident.

The OIA deputy director indicated that in January 2010, Babauta had the former administrative
officer keep Babauta’s personal car in the former administrative officer’s apartment building
parking lot while Babauta was on official travel and, later, perform maintenance on the car.


                                                                                                 25
Then, in February 2010, Babauta had the former administrative officer drive him in a
Government vehicle to a luncheon at Gonzaga University (where Babauta was an alumnus). He
also had the former administrative officer use a Government vehicle during business hours in
May 2010 to bring a bag of clothing to the Rayburn House Office Building, where Babauta’s
former girlfriend worked.

The OIA deputy director added that Babauta contacted him in September 2012 and asked him to
prepare a slideshow presentation for his daughter’s career day. Babauta told the OIA deputy
director that the presentation needed to be about him and not about OIA. The OIA deputy
director consulted with a DOI ethics officer, who agreed that the request was inappropriate. The
OIA deputy director then relayed his concerns to Babauta and told him he would not prepare the
presentation.

We interviewed the OIA Guam employee, who said the former administrative officer was
Babauta’s “gofer” and that the former administrative officer was a “serious alcoholic . . . [who]
drank in the office,” making him vulnerable to Babauta’s manipulation. The OIA Guam
employee believed Babauta might have taken advantage of the former administrative officer’s
alcoholism, surmising that the former administrative officer saw Babauta as his protector
because he did special favors for Babauta and thought Babauta would respond in kind by not
pushing him out of his job.

The OIA Guam employee also said that Babauta resided in her guest house for 2 or 3 months
during the winter of 2009 and 2010 shortly after he was appointed to his position. Babauta made
the request through the OIA Virgin Islands employee and did not pay any rent because the OIA
Guam employee and her husband ordinarily did not rent out the guest house. Babauta did not pay
for utilities because they were connected to the main house. When asked if she felt any
obligation to let Babauta stay in her guest house, the OIA Guam employee responded: “Maybe a
little bit. . . . you kind of want to get along nice with the boss.”

OIA education specialist grants manager said he served as a policy analyst in the main Interior
building until he was transferred to Hawaii in November 2011. The education specialist grants
manager said he was impressed with some of Babauta’s ideas and what Babauta wanted to do
with various reforms but was often disappointed in Babauta’s management style and his
treatment of employees. Early on in Babauta’s tenure, Babauta had the education specialist
grants manager deliver and pick up clothes for him at the dry cleaner in the main Interior
building. Babauta gave his laundry to the OIA Virgin Islands employee, who brought it to the
education specialist grants manger, with instructions to bring the laundry to the dry cleaner. The
education specialist grants manager said this occurred approximately twice, and he believed that
if he had said no, it would have impacted his work environment.

Babauta’s former girlfriend said she met Babauta around August 2008 when he was working as
the lead staff member for the U.S. House Natural Resources Committee, Subcommittee on
Insular Affairs, and was working for U.S. Congressman Vic Snyder (D-AK). They started dating
a few months later, she said, and were in a relationship for about 1 ½ years, during which time
Babauta became the assistant secretary. Following Babauta’s appointment, his former girlfriend
said they took a trip to the U.S. Virgin Islands (she could not recall the date). Babauta had



                                                                                                26
someone pick her up from the airport and then drive them around the entire weekend. She did not
know the name of the driver but said he appeared to be an island native who worked for Babauta
or knew him well. She vaguely recalled Babauta sending his driver to deliver something to her
office, but she could not recall the specifics.

An OIA CNMI employee recalled that during a 2012 trip to Guam, he and Babauta used their
rental car to pick up and drop off Babauta’s daughter from his parent’s house on their way to and
from meetings. He said they did not deviate from their course to do this. The OIA technical
assistance division employee also recalled dropping off Babauta’s daughter at school on the way
to a meeting during the same trip. She said that it was improper to use an officially rented vehicle
for such a purpose.

During subsequent interviews, Babauta acknowledged that he might have asked the former
administrative officer to park Babauta’s personal vehicle at his residence, which was close to
where Babauta lived. Babauta said that the former administrative officer might have also driven
him to work when Babauta’s personal vehicle was being repaired. Babauta acknowledged giving
money to the former administrative officer on one occasion so that the former administrative
officer could repair a light bulb in Babauta’s car, because he knew how to change the bulb and
had offered to help. Babauta said he and the former administrative officer did not have a personal
relationship outside of work.

Babauta also acknowledged seeing his former girlfriend romantically but initially could not
recall asking the former administrative officer to drive a Government vehicle to his former
girlfriend’s office to drop off a bag containing personal items once the relationship ended. Later
in the interview, however, Babauta stated that the former administrative officer might have taken
a bag to Capitol Hill for his former girlfriend, following the couple’s spring 2010 breakup. He
said that the former administrative officer might have already been driving a Government vehicle
or in his own car to Capitol Hill, and Babauta asked him to drop off the bag.

He denied having the former administrative officer or another OIA employee pick up his former
girlfriend from the airport during her earlier travel to the U.S. Virgin Islands. Babauta said he
went sightseeing at a national park during the trip, which was not part of his official itinerary,
and someone from the Governor’s staff drove them in a Government vehicle to the boat that took
them to the park. He noted that governors of the territories sometimes extend a courtesy vehicle,
as well as a driver for transportation purposes.

Babauta acknowledged that the former administrative officer possibly drove him in a
Government vehicle to two luncheons at Gonzaga University, where he was an alumnus. When
asked why he attended the events, he said: “I think it was [partly because] I’m an alumni and I
was invited by the president, recognizing, you know, that I have . . . a position in Government.”

Babauta said he had been told that the former administrative officer had a drinking problem but
that they never discussed this. He denied taking advantage of the former administrative officer’s
condition by holding performance issues over his head and having him perform personal tasks
for him.




                                                                                                 27
When asked if he had ever asked an employee to prepare a PowerPoint presentation for his
daughter, Babauta said: “I did, but I didn’t.” In October 2012, he said he received an invitation to
speak about public service at his daughter’s school, in preparation for which he asked an OIA
deputy director to prepare a short PowerPoint presentation with mostly pictures. After the deputy
director asked the ethics office if this was appropriate, Babauta wrote a separate email clarifying
his action. He recalled that DOI ethics official Melinda Loftin told him that this was probably not
something he should have asked of his staff. Babauta then apologized to the deputy director.

Responding to questions about his housing, Babauta said the OIA Guam employee offered him
her guest house after he confided his marital problems. He said he had known her and her
husband prior to coming to OIA when he worked on Capitol Hill. He did not pay her rent, he
said, because she and her husband would not have accepted it. He stayed in her guest house for
nearly 2 months from December 2009 through January 2010, acknowledging that his former
girlfriend sometimes visited and spent the night while he stayed there.

When asked about other OIA employees’ perception of him living with a subordinate employee
and having his girlfriend visit, Babauta said he considered his actions personal and private. He
believed that the OIA Guam employee and her husband would not tell anyone that he lived in a
separate residence on their property but that this had been a very difficult time for him and that
he had not considered the possible perceptions of other OIA employees. He said he lived on her
property only for a short time while he looked for an apartment, although, in retrospect, he
probably should not have stayed with her at all.

Using Government Travel for Personal Trips

We investigated the following allegations about Babauta’s Government travel:

   •   Babauta used Government travel to see his girlfriend.
   •   Babauta traveled to Saipan with no mission.
   •   Babauta traveled to Hawaii even after his meeting there was canceled.
   •   Babauta traveled frequently to Guam for political reasons.

An OIA grants division employee said he believed that Babauta had created personal trips under
the guise of business activities. He said Babauta traveled to Guam regularly and always looked
for opportunities to go somewhere and give a speech. He recalled a trip to Guam with Babauta
during which he heard the president of the Guam Community College and one of the mayors of
Guam talk to Babauta about Babauta’s political future. The grants division employee described
another trip to Guam in the summer of 2012 for which Babauta appeared to brainstorm reasons
to justify the trip. The grants division employee said that at a meeting prior to the trip, Babauta
asked staff: “Who should I meet with, what can I do, who’s got a reason?”

The OIA grants division employee also recalled a trip to Pohnpei in approximately July 2011
when he and the OIA counselor and director of policy were scheduled to accompany Babauta to
meet the chief executives of the region, including the governors of Guam and CNMI, and the
Presidents of the Federated States of Micronesia, the Republic of Palau, and the Republic of the
Marshall Islands. Already in Guam at the time, Babauta declined to fly to Pohnpei, citing


                                                                                                 28
potentially dangerous weather-related issues in the region. The Governor of Guam and others
made the flight to Pohnpei without incident. The OIA grants division employee did not know
what Babauta did with his time in lieu of attending the meeting.

OIA Director Pula also recalled the July 2011 Pohnpei trip. Babauta called him to explain that
weather kept him from traveling to Pohnpei, even though, as Pula recalled, the OIA grants
division employee, the OIA counselor and director of policy, and the Governor of Guam flew to
Pohnpei during the same timeframe. Pula said Babauta went to Saipan instead but did not know
why.

An OIA special assistant said that when she traveled with Babauta, meetings with local officials
dominated their schedules. On occasion, a meeting might have been canceled due to a conflict,
but Babauta would try to reschedule other meetings depending on how much notice they had.
Regarding Babauta’s trip to Saipan (instead of Pohnpei), the special assistant said that Babauta’s
trip had focused on renewable energy, which was a big initiative. The special assistant said she
did not actually attend any meetings on Saipan with Babauta.

The OIA counselor and director of policy also shared her concerns about Babauta’s travel. As his
legal advisor, she had told him to attend fewer meetings, but after she raised these concerns, she
said that she was cut out of travel scheduling. She believed that a lot of executive time had been
built into Babauta’s travel when no meetings were scheduled.

The OIA counselor and director of policy discussed a recent 2-week trip to Saipan (different
from the one involving Pohnpei) that involved meeting with local officials on economic issues
during the first week and with high school students the second week. She believed the economic
meetings were valid but questioned why Babauta met with high school students. He told her that
he thought the economic meetings could carry over into the second week. She believed that,
overall, Babauta’s travel schedule could be truncated.

The OIA counselor and director of policy also mentioned Babauta’s August 2012 trip to Hawaii
to attend the annual U.S. and the Federated States of Micronesia Joint Economic Management
Committee and U.S. and the Republic of the Marshall Islands Joint Economic Management and
Fiscal Accountability Committee conferences. A portion of those meetings were postponed, but
Babauta still traveled to Hawaii. The OIA counselor and director of policy requested copies of
Babauta’s schedule for the week in question and saw that Babauta had then scheduled a meeting
with the President of the Republic of the Marshall Islands. She felt that Babauta manufactured a
reason to continue on with the trip.

The OIA Guam employee stated that Babauta always felt it was necessary to take an entourage
with him. She said OIA desk officers could not travel because those funds were taken up by
people who “carried Babauta’s bags.” She recalled that Babauta scheduled travel to the Pacific
Islands from June or July through the first week of August 2011, and the OIA Virgin Islands
employee came in with a calendar in her hand and told OIA staff that they needed to fill it up
with appointments. She said that, generally, Babauta’s trips during the summer seemed to
include more stopovers in Guam when his daughter was attending school there.




                                                                                                 29
The OIA Virgin Islands employee acknowledged that she arranged all of Babauta’s travel. She
explained that Babauta traveled once and sometimes twice a month to islands in the Pacific and
Caribbean to meet with their governors, congress, and other local officials. She said Babauta
attended many ribbon-cutting events because OIA funded a lot of projects, and he spoke at other
events, such as anniversary galas and graduation ceremonies. She noted that it was important for
Babauta to physically travel to the Pacific islands instead of conducting meetings over email and
telephone because of the time difference and culture of the islands where it was better to meet
face to face. She also noted that Babauta specifically traveled to the Pacific islands to avoid late
evening and early morning telephone conversations. The OIA Virgin Islands employee did not
know of any instances when Babauta traveled to the Pacific and was unable to attend a planned
event or meeting. She said she did not keep track of Babauta when he was actually on travel.

The OIA technical assistance division employee stated that Babauta’s travel schedule seemed to
her to be consistent with that of previous administrators. When asked about Babauta’s reported
frequent travel to Guam, she explained that the U.S. Department of Defense was relocating its
military bases from Okinawa, Japan, to Guam. She explained that OIA’s mission was to
empower insular communities and improve their way of life. The scope of the military buildup
would have an enormous impact on the people of Guam and CNMI, as well as the environment.
For this reason, it was important that Babauta, as the top representative of the U.S. Government
in the region, be there to represent and protect the interests of the civilians.

Babauta’s former girlfriend said that after Babauta began working at DOI, she went on several
trips with him, having not realized he was married when she first started dating him. The first
trip, she said, was to the U.S. Virgin Islands, but she could not recall the dates. Babauta was
already there for work, and he flew her down for a weekend, she said. She believed he was there
because the U.S. Virgin Islands coin was being released, and a ceremony was being held. During
the trip, she said, she attended the coin ceremony with him, and they went to the beach.

According to his former girlfriend, Babauta traveled to Arkansas with the Marshallese
Ambassador during Christmas 2009, and Babauta and the ambassador met with the Arkansas
Health Department. At the time, his former girlfriend was in Arkansas performing legislative
assistant duties for Congressman Snyder and visiting her family. She said Babauta also met with
the Marshallese community in Northwest Arkansas. She said she believed the Arkansas trip was
legitimate Government travel because Government work was accomplished, but she
acknowledged that the trip was not preexisting and did not think Babauta would have made the
trip if she had not been there.

His former girlfriend said that Babauta also flew her to New Orleans, LA, in March 2010, where
they attended a premier for the HBO series, “The Pacific.” She said she was unsure of Babauta’s
connection with the series but thought he knew some people attending the event. After the
premier, she said, they flew to Puerto Rico. While she did not believe Babauta was on official
travel in Puerto Rico, they went to an event at the governor’s residence.

We interviewed the Governor of Guam and asked him to comment on Babauta’s official travel to
Guam. He said he was surprised when Babauta did not attend the 15th Micronesian Chief
Executives Summit in Pohnpei from July 25 through July 28, 2011. He heard Babauta did not



                                                                                                  30
attend the event because of bad weather, but the Governor of Guam did not recall any weather
issues at the time. He said some of Babauta’s trips to Guam had the appearance of political
campaigns, and decisions Babauta made sometimes had an adverse impact upon the Government
of Guam.

During an interview with Babauta, we asked if he had ever arranged Government travel
specifically to meet women, including his former girlfriend. He acknowledged that he sometimes
had a female companion meet him when he traveled for work but said he never used Government
travel for personal gain. He also said that, although he had family and friends in Guam, he did
not arrange Government travel specifically around family events or to see friends. He
acknowledged that he had talked to his family about running for the position of Governor of
Guam someday but did not set up official travel for political reasons or to campaign for office.

Later in the interview, Babauta acknowledged that his former girlfriend met him when he
traveled to New Orleans in March 2010. He had been invited to a premier of a privately owned
World War II museum in New Orleans, which he found out about through the former Deputy
Assistant Secretary for Water and Science John Tubbs, whose relative wrote “Band of Brothers.”
The museum wanted to develop a relationship with governments in the islands that had
experienced military activity during World War II, so he invited island officials to the premier.

The former Governor of Guam attended the event, as did the Governor of CNMI and the
ambassador to the United Nations for the Republic of Palau. Babauta said that his former
girlfriend went as his date. The main purpose of the trip, he said, was to promote economic
development in the islands and possibly to look at opportunities for the museum to develop
tourism in the islands. He and the other officials went to the premier and then had a meeting the
following morning.

Babauta said his former girlfriend also met him on a Government trip in the U.S. Virgin Islands
in 2010, which concerned the release of the U.S. Virgin Islands coin. He believed the U.S.
Department of the Treasury might have invited him on the trip, but he probably also had
meetings with local officials.

When asked about the Pohnpei trip, Babauta confirmed that from June 22 through August 1,
2011, he traveled in Guam and Saipan and was scheduled to attend the Federated States of
Micronesia’s presidential inauguration events on Pohnpei. He said he did not attend these events
because of a storm in the area, and he did not feel comfortable boarding the airplane (in Guam).
Babauta instead went to Saipan to attend meetings, rather than returning to Washington, DC,
because he was already in the area. He could not recall the meetings he attended in Saipan or
with whom he met. Babauta acknowledged that he stayed at the Lao Lao Bay Golf resort on
Saipan from July 12 through July 15, 2011.

We also asked Babauta about the Hawaii trip involving the joint economic meetings in August
and September 2012. He acknowledged that he learned these meetings had been postponed
approximately 4 days before he left. When asked why he did not leave a few days later, stop in
Hawaii as authorized, and continue on to the Cook Islands as planned, Babauta said this was a
decision he made to make use of his time while he was there. He said he met with a Rear



                                                                                                 31
Admiral with the U.S. Coast Guard; visited the OIA field office in Honolulu, HI, where he met
with representatives of the Pacific Islands Health Officers Association; met the incoming U.S.
Ambassador to the Republic of the Marshall Islands; and attended meetings on the Republic of
the Marshall Islands trust fund.

                                         SUBJECT(S)

   1. Babauta, Anthony, former Assistant Secretary for Insular Affairs, U.S. Department of the
      Interior.
   2. Project Coordinator, Micronesian Center for a Sustainable Future.

                                        DISPOSITION

On November 17, 2012, DOI Chief of Staff Laura Davis placed Babauta on administrative leave.
Babauta officially resigned as the Assistant Secretary for Insular Affairs on January 24, 2013.

We referred this case to the U.S. Attorney’s Office for the Districts of Guam and the Northern
Mariana Islands. On July 30, 2013, the U.S. Attorney’s Office declined this case for criminal
prosecution.




                                                                                                 32
